<html>
<title> - EXAMINING THE NATION'S CURRENT AND NEXT GENERATION WEATHER SATELLITE PROGRAMS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




 
                    EXAMINING THE NATION'S CURRENT 
                          AND NEXT GENERATION
                       WEATHER SATELLITE PROGRAMS

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              July 7, 2016

                               __________

                           Serial No. 114-86

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
 
 


       Available via the World Wide Web: http://science.house.gov
       
       
       
       
                             ________

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 20-915 PDF               WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001          
       
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DON S. BEYER, JR., Virginia
JOHN R. MOOLENAAR, Michigan          ED PERLMUTTER, Colorado
STEVE KNIGHT, California             PAUL TONKO, New York
BRIAN BABIN, Texas                   MARK TAKANO, California
BRUCE WESTERMAN, Arkansas            BILL FOSTER, Illinois
BARBARA COMSTOCK, Virginia
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana
DARIN LaHOOD, Illinois
WARREN DAVIDSON, Ohio
                                 ------                                

                      Subcommittee on Environment

                 HON. JIM BRIDENSTINE, Oklahoma, Chair
F. JAMES SENSENBRENNER, JR.          SUZANNE BONAMICI, Oregon
RANDY NEUGEBAUER, Texas              DONNA F. EDWARDS, Maryland
RANDY WEBER, Texas                   ALAN GRAYSON, Florida
JOHN MOOLENAAR, Michigan             AMI BERA, California
BRIAN BABIN, Texas                   MARK TAKANO, California
BRUCE WESTERMAN, Arkansas            BILL FOSTER, Illinois
GARY PALMER, Alabama                 EDDIE BERNICE JOHNSON, Texas
RALPH LEE ABRAHAM, Louisiana


                            C O N T E N T S

                              July 7, 2016

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Jim Bridenstine, Chairman, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     4
    Written Statement............................................     6

Statement by Representative Suzanne Bonamici, Ranking Minority 
  Member, Subcommittee on Enviorment, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     8
    Written Statement............................................    10

Statement by Representative Eddie Bernice Johnson, Ranking 
  Minority Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    12
    Written Statement............................................    13

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    78
    Written Statement............................................    80

                               Witnesses:

Dr. Stephen Volz, Assistant Administrator, National Environmental 
  Satellite, Data, and Information Services, National Oceanic and 
  Atmospheric Administration
    Oral Statement...............................................    14
    Written Statement............................................    17

Mr. David Powner, Director, Information Technology Management 
  Issues, Government Accountability Office
    Oral Statement...............................................    30
    Written Statement............................................    32

Mr. Ralph Stoffler, Director of Weather, Deputy Chief of Staff 
  for Operations, U.S. Air Force
    Oral Statement...............................................    51
    Written Statement............................................    53

Ms. Cristina Chaplain, Director, Acquisition and Sourcing 
  Management, Government Accountability Office
    Oral Statement...............................................    62
    Written Statement............................................    64
Discussion.......................................................    82

             Appendix I: Answers to Post-Hearing Questions

Dr. Stephen Volz, Assistant Administrator, National Environmental 
  Satellite, Data, and Information Services, National Oceanic and 
  Atmospheric Administration.....................................   104

Ms. Cristina Chaplain, Director, Acquisition and Sourcing 
  Management, Government Accountability Office...................   114


                     EXAMINING THE NATION'S CURRENT



                          AND NEXT GENERATION



                       WEATHER SATELLITE PROGRAMS

                              ----------                              


                         THURSDAY, JULY 7, 2016

                  House of Representatives,
               Subcommittee on Environment,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Jim 
Bridenstine [Chairman of the Subcommittee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Bridenstine. The Subcommittee on Environment will 
come to order. Without objection, the Chair is authorized to 
declare recesses of the subcommittee at any time.
    Welcome to today's hearing entitled ``Examining the 
Nation's Current and Next Generation Weather Satellite 
Programs.'' I recognize myself for five minutes for an opening 
statement.
    I'd like to first thank our witnesses for being here today. 
This committee has a longstanding interest in the weather 
satellite programs of the National Oceanic and Atmospheric 
Administration, as evidenced by our continued oversight of 
these programs spanning multiple Congresses. I am also pleased 
to have the Department of Defense here today to discuss their 
weather satellite missions and the cooperation and coordination 
between the DOD and NOAA that result in expert forecasts that 
save lives and property.
    After the National Polar-Orbiting Operational Environmental 
Satellite System, NPOESS, partnership failed to curb costs or 
yield benefits, the Administration directed NOAA and the DOD to 
develop individual polar-orbiting weather satellite programs. 
This has come to fruition with NOAA's Joint Polar Satellite 
System, JPSS, the first of which is slated to launch in March 
of 2017. Given that we are currently relying on the 
experimental-turned-operational Suomi NPP, it is my hope that 
this program suffers no further delays, and this launch date is 
met.
    There has been improvement in the JPSS program over the 
past few years, but there are still potential causes of 
concern, which we will explore today. Meanwhile, the DOD began 
its own weather satellite program, the Defense Weather 
Satellite System, DWSS. However, this plan was scrapped in 
2012, and the Department is now planning a new generation 
called the Weather System Follow-On, WSF.
    In the meantime, the DOD currently relies on its existing 
satellite system, the Defense Meteorological Satellite Program, 
DMSP. These DOD satellites, much like NOAA's existing fleet, 
are ageing rapidly. One of them, DMSP-19, failed earlier this 
year, increasing the fragility of the system. The possibility 
of data gaps looms large as both agencies look to create a more 
robust satellite architecture.
    Further complicating these issues is the reliance the 
agencies place on themselves and our international partners for 
critical weather data. For polar-orbiting satellite data, there 
are three primary orbits. The early-morning orbit is operated 
by the DOD, the mid-morning orbit by EUMETSAT's MetOp program, 
our partnering satellite agency in Europe, and the early-
afternoon orbit by NOAA. Eighty percent of the data that goes 
into our numerical weather models comes from polar-orbiting 
satellites. Since we rely so heavily on these satellites, it is 
important for these orbits to continually be filled.
    While these government satellites systems play an important 
role in providing data that predicts weather, I also want to 
highlight the growing role of the private sector. Let me be 
absolutely clear: I am not in any way suggesting the 
privatization of NOAA. Some people have suggested that, or the 
National Weather Service. However, the advancements of the 
commercial weather satellite industry have real potential to 
improve our forecasting capabilities, as well as provide gap 
mitigation in the event one of our satellites suffers a failure 
or further delays.
    NOAA has released a Commercial Space Policy, a draft of its 
Commercial Space Activities Assessment process, and is 
currently operating a commercial weather data pilot program to 
test and validate private sector data for integration into its 
numerical weather models. I applaud NOAA's progress, and look 
forward to further action on this front. This Committee will 
remain vigilant in its oversight responsibilities to ensure 
that Americans have the best possible weather forecasts to save 
lives and property.
    [The prepared statement of Chairman Bridenstine follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairman Bridenstine. I now recognize the gentlewoman from 
Oregon, the Ranking Member, Ms. Bonamici, for an opening 
statement.
    Ms. Bonamici. Thank you very much, Mr. Chairman, and thank 
you for your ongoing interest in the important issue of 
improving weather forecasting, and thank you to all of our 
witnesses for being here today.
    The data collected by NOAA's weather satellites are the 
backbone of NOAA's weather prediction capabilities and support 
weather forecasting activities around the globe. NOAA, in 
coordination with its interagency and international partners, 
is working diligently to move the national weather satellite 
system into a robust state so we will have the certainty and 
continuity of accurate and reliable forecasts and severe storm 
warnings.
    In addition to providing uninterrupted weather observations 
in the near term, NOAA is actively assessing what new 
capabilities will be required beyond the 2020s to protect 
American lives and property during extreme weather events. I am 
looking forward to hearing about both of these efforts.
    As we've discussed in the past, however, both the 
geostationary and polar weather satellite programs--GOES and 
JPSS--have experienced schedule delays, significant cost 
growth, technical performance concerns, and management 
challenges. Although any and all remaining challenges must be 
addressed, I am pleased to note that NOAA has made significant 
progress, and we expect to soon be celebrating the successful 
launches of GOES-R and JPSS-1 satellites.
    It is critical that these programs remain on schedule to 
minimize the potential risk to the collection of observations 
and data that are needed for NOAA's weather forecasting 
activities. Even the best-laid plans can be met with 
unanticipated events, a launch failure, or a potential 
satellite malfunction, for example. I will be listening for an 
update on the status of NOAA's contingency plans in the event 
that we do face a gap in data continuity, and I look forward to 
hearing about NOAA's efforts to put the weather satellite 
programs on a path to the robust state that the 2013 
independent review team recommended.
    In addition, the strength of our civil weather satellite 
system relies heavily on the interagency and international 
partnerships that NOAA has in place over decades. This 
morning's hearing provides the opportunity for us to learn more 
about NOAA's work with the Department of Defense and the 
communication among partners on future weather satellite 
planning efforts.
    As we look ahead, NOAA's partnerships are expected to 
extend to commercial entities. NOAA is taking concrete steps 
toward implementing its commercial weather data pilot program 
in response to direction in the fiscal year 2016 Omnibus 
Appropriations Act. In fact, I understand that Dr. Volz will be 
attending an industry day workshop immediately following our 
hearing where he will receive feedback from companies 
interested in participating in the pilot program. I'm 
encouraged that NOAA has implemented the commercial weather 
data pilot program promptly and has provided an open dialogue 
throughout the process.
    Finally, the planned launches of both GOES-R and JPSS-1 
satellites should not mark the conclusion of NOAA's 
programmatic efforts but rather should be the figurative 
launching pad of the planning and development of our next 
generation of weather satellites. I look forward to hearing 
about both NOAA's polar follow-on program and its long-term 
architecture plans.
    And before I yield back the balance of my time, I'm going 
to note, Mr. Chairman, I do need to run to a markup, and I'm 
going to do my best to get back as soon as possible. My 
colleague Mr. Grayson will take over until I can get back.
    And I yield back. Thank you, Mr. Chairman.
    [The prepared statement of Ms. Bonamici follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
  
    Chairman Bridenstine. The gentlelady yields back.
    I'd like to now recognize the Ranking Member of the full 
Committee, Ms. Johnson, for a five-minute opening statement.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    Let me welcome the witnesses, and I'm pleased to see that 
Dr. Volz and Dr. Powner are here again to provide updates on 
our nation's critical weather satellite development programs, 
JPSS and GOES-R. I am looking forward to hearing from both of 
you and Mr. Stoffler and Ms. Chaplain about the relationship 
between the Department of Defense and NOAA and how that 
partnership helps meet both civilian and defense needs.
    I want to be clear that NOAA's weather satellite programs 
play a critical role in ensuring the continued health of our 
weather forecasting capabilities, and they support weather 
forecasting activities around the globe. Although both JPSS and 
GOES-R has experienced significant cost growth and management 
and technical challenges during this development, I am pleased 
to learn that NOAA has responded to recommendations from GAO 
and others and that we expect to have both satellites launched 
within the year.
    However, as we will hear today, there is still more work to 
be done. Concerns about a potential gap in our satellite 
coverage must be addressed and NOAA must apply lessons learned 
to ensure future programs do not face identical challenges.
    As I've said before, we must take all necessary steps to 
ensure that there is not a gap in satellite coverage in support 
of our weather forecasting capabilities. The successful launch 
of these satellites is critical to ensure our nation maintains 
its weather forecasting capabilities. However, it represents 
the first step, not the last in NOAA's ever-evolving efforts to 
protect American lives, property, and critical infrastructure.
    I look forward to hearing more about NOAA's plans to 
maintain and improve the Nation's weather forecasting 
capabilities. I thank you, Mr. Chairman, for holding the 
hearing, and I yield back the balance of my time.
    [The prepared statement of Ms. Johnson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Chairman Bridenstine. I'd like to thank the Ranking Member 
for her opening statement.
    I'd like to introduce our witnesses today. Our first 
witness today is Dr. Stephen Volz, Assistant Administrator for 
the National Environmental Satellite Data and Information 
Services at the National Oceanic and Atmospheric 
Administration. Dr. Volz has a doctorate in experimental 
condensed matter physics from the University of Illinois at 
Urbana-Champaign and a master's in physics from Illinois and a 
bachelor's in physics from the University of Virginia.
    Our next witness today is Mr. David Powner, Director of 
Information Technology Management Issues at the Government 
Accountability Office. Mr. Powner received his bachelor's 
degree in business administration from the University of Denver 
and attended the Senior Executive Fellows Program at Harvard 
University.
    Our third witness today is Mr. Ralph Stoffler, Director of 
Weather and Deputy Chief Of Staff for Operations at the U.S. 
Air Force. Mr. Stoffler received his bachelor's of science in 
meteorology from the University of Oklahoma in Norman--Boomer--
and his master's degree in systems management from the 
University of Southern California Los Angeles.
    Our final witness today is Ms. Cristina Chaplain, Director 
of Acquisition and Sourcing Management at the Government 
Accountability Office. Ms. Chaplain received her bachelor's 
degree magna cum laude in international relations from Boston 
University and her master's degree in journalism from Columbia 
University.
    I'd like to now recognize Dr. Volz for a five-minute 
opening statement.

                 TESTIMONY OF DR. STEPHEN VOLZ,

                    ASSISTANT ADMINISTRATOR,

               NATIONAL ENVIRONMENTAL SATELLITE,

                DATA, AND INFORMATION SERVICES,

        NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

    Dr. Volz. Good morning, Chairman Bridenstine, Ranking 
Member Bonamici, who unfortunately had to depart, and Members 
of the Committee. I'm Dr. Stephen Volz, as indicated, Assistant 
Administrator for NOAA's Satellite, Environmental, Data, and 
Information Service called NESDIS.
    The United States depends on NOAA to collect and provide 
the critical Earth observations and information needed for 
weather forecasts, for disaster preparedness, all-hazards 
response and recovery, for the protection of critical 
infrastructure and natural resources, and also for the 
continued economic vitality of the nation.
    Currently, NOAA's observation portfolio is strong and will 
soon be even stronger. NOAA has launched, with support from our 
partners, international and interagency, two missions over the 
last 18 months, first, the space weather Deep Space Climate 
Observing--Observatory satellite or DSCOVR in February of 2015 
and also the ocean-observing satellite Jason-3 just earlier 
this year.
    Within the next year, NOAA plans to launch the next-
generation geostationary and polar-orbiting environmental 
satellites GOES-R and JPSS-1 and the COSMIC-2A radio 
occultation constellation of satellites. These launches are 
only the beginning of a series of next-generation satellites 
soon to take flight.
    But a significant portion of what NESDIS does is not just 
in space. All elements of the integrated observing system with 
satellites, ground operations, assured satellite 
communications, reliable data archives are essential for our 
continued mission success. Beginning with the launch of JPSS-1, 
NESDIS will bring online in stages, a new upgraded ground 
operating system with enhanced reliability security, and lower 
data latency. This ground system will operate, ingest, and 
process data, providing information to users around the globe.
    Similarly, for GOES-R we're deploying six new ground 
antennae enhanced to handle the increased data rate expected 
from GOES-R while staying within the narrow accessible 
frequency range allowed for our satellite transmissions.
    In fiscal year 2016, NOAA received funding from Congress to 
initiate the polar follow-on, the extension of the polar 
constellation. With this critical funding, the JPSS program now 
includes five polar-orbiting satellites, Suomi NPP, JPSS-1, 2, 
3, and 4. This series of satellites supported by a NOAA 
industrial collaboration over the past years and into the 
future years is making excellent progress now on the Polar 
Follow-On, procuring the critical instrument long lead items so 
that we can ensure the delivery of these satellites on cost and 
on schedule.
    Earth's weather systems are a global phenomenon, and NOAA's 
satellites are only one piece of a global observing 
constellation. We are able to accomplish what we do because our 
many productive and mutually beneficial scientific and 
operations partnerships built up over years of cooperation and 
formal agreements that are underpinned by a full, open, and 
timely data-sharing policy. These partnerships allow us to 
ensure the continued operation of the robust global 
constellation needed to meet the needs of our users and 
stakeholders.
    In order to produce trusted, reliable data that our nation 
depends on every day, quality, validated observations are 
needed from multiple polar orbits, as Mr. Chairman Bridenstine 
mentioned. Continuing our partnerships now 30 years strong, 
NOAA and the European Organisation for the Exploitation of 
Meteorological Satellites, or EUMETSAT, have agreed to share 
the burden of the polar-orbiting satellite for the next 25 
years. NOAA and EUMETSAT will continue splitting coverage for 
the two primary orbits, the midmorning and afternoon, and 
openly sharing data from our--with our respective missions.
    Within the United States, interagency collaboration allows 
us to leverage the capabilities, the capacity, and the 
infrastructure of other U.S. agencies such as with NASA, which 
is NOAA's acquisition agent, and with the Department of 
Defense. The United States Air Force Defense Meteorological 
Satellite Program, or DMSP satellites, provide observations for 
the third early-morning orbit that is important for us. And 
NOAA operates the ground system development and oversees daily 
operations of the DMSP satellites out of our NOAA Satellite Ops 
Facility in Suitland, Maryland. These partnerships continue to 
provide excellent value for the U.S. Government as a whole.
    Looking to the future, we are now preparing for the future 
observing system, evaluating changes in technology, emerging 
partnership opportunities, and national trends. Partnerships 
with the commercial sector and academic institutions can 
provide flexibility, including more innovative observing 
approaches, potentially enhancing our overall observing system 
reliability.
    This year, through the Commercial Weather Data Pilot, 
NESDIS is working with the emerging commercial Earth 
observation community to explore the present capabilities to 
meet NOAA's observing requirements. Our comprehensive system 
study will consider all sources as we map out the observing 
system of the future. Our goal is to deploy an observing system 
within stable budget requirements but which is also agile and 
resilient and is responsive to the rapidly changing 
capabilities and technology of the future.
    We appreciate Congress' strong support and we look forward 
to answering questions during the hearing today. Thank you, 
sir.
    [The prepared statement of Dr. Volz follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Chairman Bridenstine. Thank you for your testimony.
    Mr. Powner, you're recognized for five minutes.

            TESTIMONY OF MR. DAVID POWNER, DIRECTOR,

           INFORMATION TECHNOLOGY MANAGEMENT ISSUES,

                GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Powner. Chairman Bridenstine, Ranking Member Johnson, 
and Members of the Subcommittee, since my December testimony 
before this subcommittee, we have continued to review the JPSS 
program and NOAA's policies and procedures for determining the 
life span of existing and future satellites. Accurately 
depicting these life spans is important, given potential gaps 
in coverage and the timing of the out-year satellite 
acquisitions.
    This morning, I will provide an update on the JPSS program, 
the latest of our estimate on the potential gap, a security 
assessment of the ground stations, and some observations about 
the Polar Follow-On program.
    JPSS's launch date of March 2017 is on target according to 
NOAA despite the program missing interim milestones for the 
spacecraft, ATMS, and the ground segment. This is the case 
since the program had sufficient costs and schedule reserves 
built into it. This committee's persistent questioning of these 
reserves over the past several years demonstrates the important 
role your consistent oversight has played.
    We still remain concerned about the launch date because the 
launch readiness date just slipped one month from December 2016 
to January 2017. Two key areas to watch are the August ground 
station delivery and the upcoming thermal vac test, which is to 
start at the end of this month.
    So with the March 2017 launch date and a three month 
checkout period, which is somewhat optimistic, JPSS-1 is 
expected to be the primary operational satellite in the early 
afternoon orbit around June 2017 or roughly a year from now.
    I'd like to display a chart that I showed at the December 
hearing.
    [Slide.]
    At that hearing I testified and NOAA agreed that it was 
extending the NPP life span from October 2016 to 2020. That's 
the red arrow at the top of the chart. At that time, we 
questioned whether it should be extended the full four years 
given NOAA's assessment. Since then, we've learned that NOAA 
now labels this four-year extension as fuel-limited life, and 
it is not the expected life of the spacecraft and sensors. This 
is just another instance where NOAA's charts and satellite life 
spans have been misleading to the Congress.
    Another key question is whether the ATMS instrument on NPP 
will last until J-1's ATMS becomes operational. We testified in 
December about the ATMS issues, and they continue.
    Just recently, we made recommendations to NOAA to develop a 
policy for updating its fly-out charts to include having these 
life spans consistently and accurately reported based on 
detailed analyses. We believe this rigor in developing the fly-
out charts is critical for NOAA to rebuild trust with both this 
committee and with the appropriation committees.
    Mr. Chairman, I'd now like to turn to the ground station 
security findings and recommendations. This is an important 
area because NOAA has reported several incidents regarding 
access to its ground system, including hostile probes and 
unauthorized access. To its credit, NOAA has a systems security 
plan, has performed detailed penetration tests, and is working 
to address known vulnerabilities. However, NOAA has determined 
that the JPSS ground system is at high risk of compromise due 
to the significant number of controls that are not fully 
implemented.
    [Slide.]
    As this next chart displays, NOAA has been working on over 
1,000 critical and high vulnerabilities on the current ground 
station and hundreds more have been identified from penetration 
tests on the ground upgrade. Just last night, NOAA provided an 
update on open vulnerabilities and they report decreasing 
roughly 1,500 open critical and high vulnerabilities down to 
about 1,200, a decrease of 300. Of concern are the critical 
vulnerabilities associated with the current operational ground 
station. These actually increased slightly. No one needs to 
close these vulnerabilities much quicker. Some areas to address 
these vulnerabilities include applying recommended patches and 
implementing stronger access controls.
    Turning to the follow-on program, we are all for robust 
constellations and avoiding any potential gaps like the one we 
hope does not occur between NPP and J-1, but proposals to build 
J-3 and 4 to store nearly 3 and six years respectively need to 
be supported by cost-benefit analyses of different storage and 
launch scenarios. In addition, these continuity decisions need 
to be balanced with minimizing program costs.
    In conclusion, NOAA has done a solid job coming out of the 
NPOESS debacle and being on the verge of the J-1 launch. 
Monitoring the remaining tests in the ground station delivery 
is important in these remaining months to see if the March 2017 
launch date holds.
    Regarding the gap between NPP and J-1, ATMS aware is the 
critical watch list item. NOAA also needs to more accurately 
inform Congress of satellite life spans and potential gaps in 
coverage, and finally, they need to better secure ground 
stations to avoid security incidents involving the loss of 
critical weather data.
    This concludes my statement. I look forward to your 
questions.
    [The prepared statement of Mr. Powner follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
  
    
    Chairman Bridenstine. I'd like to thank the gentleman.
    Mr. Stoffler, you're recognized for five minutes for an 
opening statement.

                TESTIMONY OF MR. RALPH STOFFLER,

                      DIRECTOR OF WEATHER,

             DEPUTY CHIEF OF STAFF FOR OPERATIONS,

                         U.S. AIR FORCE

    Mr. Stoffler. Chairman Bridenstine, Ranking Member 
Bonamici, and Members of the Subcommittee, thank you for the 
opportunity to appear before you----
    Chairman Bridenstine. Would the gentleman yield for one 
second? Can you move your microphone to be in front of you? All 
right. Good.
    Mr. Stoffler. Let me start again then. Chairman 
Bridenstine, Ranking Member Bonamici, and members of the 
subcommittee, thank you for the opportunity to appear before 
you this morning to discuss space-based environmental 
monitoring and the partnerships that ensure accurate and timely 
forecast capabilities.
    Air Force weather is comprised of people, systems, and 
processes that together deliver unique services to the joint 
war fighter United States Air Force and the United States Army. 
Air Force's weather primary mission is centered on analyzing 
and forecasting global weather and solar impacts on military 
and combat operations. We strive to minimize the impact of 
weather threats to friendly forces while simultaneously 
capitalizing on weather conditions that maximize the 
operational advantage over enemy forces and exploit enemy 
weaknesses.
    We achieve our mission with total force airmen, uniformed 
and civil servants around the world, educated and trained on 
space and weather impacts to the war fighting mission. Our 
airmen serve in capacities requiring combat field skills, move-
shoot communicate skills, combat lifesaver qualifications, and 
Army airborne and special operations parachutist competencies. 
We develop theater weather-sensing strategies for each 
operation and leverage all appropriate available data sets. We 
minimize data gaps by deploying Air Force tactical weather 
centers and incorporating data from nontraditional weather 
sources to develop the environmental picture of the battle 
space.
    We achieve this through cooperative engagements with our 
coalition partners, military-to-military engagements, national 
and international cooperation, and Department of Defense unique 
programs. We analyze and assimilate this data into our 
operational centers and our numerical models to present a 
unified forecast to the coalition war fighting team for 
multiple security classification levels.
    The war fighter receives a timely and consistent battle 
space weather picture in the planning and execution phases of 
an operation that addresses strategic operational and tactical 
needs.
    In the post-combat portion of operations, we work to 
normalize the impact to nations by training personnel and 
restoring basic meteorological services, which allows the 
Department of Defense to withdraw its resources to be ready for 
the next engagement.
    Fundamental to nearly all military operations and all 
levels of the military decision-making process is the 
information and data provided by weather satellites. We fully 
recognize that the American private sector can provide 
technological advances and research in the science of our craft 
to provide an essential element to our weather enterprise. 
While this progress is exciting, we must balance our portfolio 
with constraints in human capital, physical means, and 
prioritization to ensure our future capabilities directly 
correlate to the combat commanders' war fighting needs.
    Thank you again for the opportunity and privilege to 
testify before you today. I'm happy to answer any questions you 
may have.
    [The prepared statement of Mr. Stoffler follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
  
    
    Chairman Bridenstine. I'd like to thank the gentleman for 
his testimony.
    Ms. Chaplain, you're recognized for five minutes.

              TESTIMONY OF MS. CRISTINA CHAPLAIN,

         DIRECTOR, ACQUISITION AND SOURCING MANAGEMENT,

                GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Chaplain. Chairman Bridenstine, Chairman Smith, Ranking 
Member Johnson, Ranking Member Bonamici, and Members of the 
Subcommittee, thank you for inviting me to discuss GAO's recent 
work on defense weather satellites, DOD's polar-orbiting 
weather satellites, known as DMSP, currently cross the equator 
in the early and midmorning orbits while NOAA satellites cross 
the equator in the afternoon orbit. DOD will not continue 
replacing satellites in the midmorning orbit as it was decided 
in the aftermath of the NPOESS program that the United States 
would rely on the Europeans for this orbit.
    In addition, last year, DOD was directed not to launch the 
last DMSP satellite planned for the early-morning orbit in 
light of Congressional concerns with lack of planning, 
coordination, and execution of activities to continue meeting 
DOD's weather requirements. But because the 19th DMSP satellite 
in the early-morning orbit recently failed prematurely, DOD has 
put dismantling of its last satellite on hold.
    DOD undertook an analysis of alternatives for future 
weather satellites from 2012 to 2014. We were mandated by the 
Congress to review this study. Undertaking the analysis was a 
good step. In the past, we have found satellite programs did 
not perform a rigorous analysis or conducted one with a 
solution already in mind.
    In addition, DOD is considering significant changes to its 
future space architectures to increase resiliency and is 
operating under a constrained budgetary environment, which 
ultimately means DOD needs to find ways to reduce the cost of 
acquisition either by paring back its requirements or doing 
business differently. A thorough analysis of alternatives can 
help DOD navigate all these challenges.
    Ideally, DOD would have conducted this analysis in the 
aftermath of the cancelation of NPOESS in 2010. By the time it 
started its analysis in 2012, it was already facing a gap for 
measuring ocean winds and more gaps were looming. The lag in 
planning for a new satellite system is not unique to weather. 
The GAO has been concerned about similar lags from its warning 
satellites and protected communication satellites. The longer 
it takes to assess and decide on what path to take the more DOD 
is at risk of facing critical gaps or having to continue buying 
legacy satellites.
    We found DOD made an effort to plan for future weather 
satellites with a more cost-effective approach in mind, 
including consideration of which capabilities DOD needed to 
provide and which could be provided by leveraging other sources 
of data. The effort to rationalize requirements is also a 
positive step. Too often, past programs sought to answer to 
many requirements, all with the most advanced technologies. The 
technology and design problems encountered by NPOESS were 
partly due to problems with reigning in requirements.
    We also found the analysis was useful for informing plans 
for new satellites that can measure ocean winds and tropical 
cyclone intensity and for a new space weather sensor that could 
be integrated on other satellites. However, we found the 
analysis was less useful for informing plans for DOD's two 
highest priority capabilities, cloud characterization and 
theater weather imagery data, now facing near-term gaps over 
the Indian Ocean. While DOD consulted with a wide range of 
stakeholders in conducting the analysis, it did not effectively 
collaborate with NOAA, which represents DOD's interests to 
international partners.
    Specifically, NOAA was not involved in the reviews or the 
analysis or regular discussions with the study leadership team, 
the discussions were had with the technical consultant to NOAA. 
The lack of formal collaboration and coordination with NOAA 
contributed to an incorrect assumption about the continued 
availability of critical weather data from European satellites. 
As a result, the analysis did not fully assess solutions for 
these high-priority capabilities.
    Because DOD did not thoroughly evaluate its top-two weather 
priorities during the analysis, DOD is now assessing how to 
fill these gaps leading to additional lags and planning. The 
failure of DMSP satellite and the termination of DMSP-20 have 
heightened the need to do so. It should also be noted that 
ineffective coordination has been a recurring problem in space 
notably with the NPOESS program but with other space programs 
as well.
    In closing, we recognize that this type of analysis is 
extremely challenging to conduct, more so given the rigor and 
scope DOD applied to it. But in light of the importance of 
cloud characterization and theater weather imagery data to 
DOD's mission, it was incumbent on the Air Force to work more 
effectively with NOAA. Since our report, they have taken 
actions, and I can talk about those during the hearing.
    This concludes my statement, and I'm happy to answer any 
questions you have.
    [The prepared statement of Ms. Chaplain follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
      
    
    Chairman Bridenstine. Thank you for your testimony, Ms. 
Chaplain.
    We have with us--now, we're going to go a little bit out of 
order--but the chairman of the full committee, a good friend of 
mine from Texas, Mr. Smith, you are recognized for five minutes 
for an opening statement.
    Mr. Smith. Thank you, Mr. Chairman. I appreciate the 
opportunity to be able to go out of turn for an opening 
statement. And I want to thank our witnesses for being here 
today.
    The Science Committee has held many hearings on NOAA's 
troubled weather satellite programs over the years. These 
problems largely stem from the federal government's ill-fated 
consolidation of civilian and military weather and climate 
systems, which created slow, costly, and inefficient 
interagency programs to handle our weather prediction.
    In 2010, when it became apparent that the National Polar-
orbiting Environmental Satellite System was a failure, the 
Administration canceled it and left the agencies, namely NOAA 
and DOD, to create their own individual polar programs. In 
NOAA's case, they initiated the JPSS satellite, which 
unfortunately has continually encountered delays, cost overruns 
and mismanagement.
    Over the last several years, NOAA's spending for satellite 
operations has ballooned to account for roughly 40 percent of 
its total budget, over $2 billion. This prevents NOAA from 
adequately pursuing other important areas of science, service, 
and stewardship.
    NOAA now proposes to move forward with the next series of 
weather satellites using the same technology, the Polar Follow-
On. So I am concerned that the same problems that have occurred 
over the last ten years will continue. This Committee needs 
assurance that NOAA will get its government satellite spending 
under control and be able to meet future forecasting needs. 
Congress should not continue to fund an over-budget program 
that has not performed up to its standards.
    So what is NOAA doing differently with its next series of 
satellites that justifies such high continued funding? I fear 
the answer is nothing. I am also not convinced that NOAA is 
adequately mitigating the very real possibility of a gap in our 
weather data. In the face of real threats, NOAA should be doing 
all it can to prevent data gaps, yet they continue to drag 
their feet and not consider all options. The growing private 
sector weather enterprise could mitigate NOAA's shortcomings 
through new technologies and sources of data, but NOAA shows 
that it will only take action if forced to do so.
    If NOAA is afraid of innovation, maybe they shouldn't be in 
the business of deciding what technologies are needed for 
improved forecasting. For instance, commercial satellites 
equipped with the latest technology could help prevent data 
gaps, provide new kinds of advanced data, improve current and 
future model forecasts, and do so on a much faster timeline at 
lower cost than large and slow government systems. So why isn't 
NOAA considering these?
    NOAA should absolutely consider the help that the private 
sector can provide. In this case, commercial innovation beats 
the status quo of slow, costly government systems. Faster, 
better, and cheaper solutions take vision, competence, and 
courage. NOAA needs more of these qualities.
    Mr. Chairman, I look forward to hearing from our witnesses 
today about how we can get our nation's future weather data 
back on track and on time to provide our citizens with the 
critical weather forecasts they need and deserve.
    Let me also say, regrettably, I have another committee 
markup going on at the same time, so I'm going to be shuttling 
back and forth between the committees.
    Thank you, Mr. Chairman. I yield back.
    [The prepared statement of Chairman Smith follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairman Bridenstine. Thank you, Chairman, for your opening 
statement. Thank you to all of our witnesses for their 
testimonies.
    Members are reminded that Committee rules limit questioning 
to five minutes. The Chair now recognizes himself for five 
minutes.
    I wanted to start by addressing the issue that we recently 
had on another committee I serve on, the Armed Services 
Committee, with Meteosat-7, which was going to do cloud 
characterization and theater weather imagery over the Indian 
Ocean, which is critically important for our war fighters 
serving in that part of the world. We had hearings on our 
committee when we learned that Meteosat-7 was not going to be 
able to continue doing those functions and that the Europeans 
were not planning to replace it with what we thought they were 
going to plan to replace it with, so we started having hearings 
and trying to figure out what are we going to mitigate this gap 
with.
    And then, ultimately, we just learned last week that the 
Europeans are indeed going to launch a new satellite and move 
Meteosat-8 over to a region that is close to where Meteosat-7 
was so we can get some of the same capabilities back.
    I wanted to ask Mr. Stoffler if you would comment on the 
process that we went through from believing we were secure in a 
solution to not having a solution and then going and finally 
looking like we've got a good solution. If you could share with 
us what the solution is and the process that we went through to 
get there.
    Mr. Stoffler. Chairman, I appreciate that question. And 
certainly you're very correct. We were planning all along that 
the Europeans would provide us the capabilities over the Indian 
Ocean. They, like us, have their own priorities and they had to 
make a change to their plans. When we were first informed of 
that possibility, we looked at all alternative options that 
were out there.
    Certainly, there are other geostationary capabilities over 
the Indian Ocean and particularly provided both by Russia and 
China. Our systems are capable of receiving Chinese data, and 
we did an evaluation of that. When we determined the potential 
of hackings that took place at NOAA, we locked our systems 
down. We had the CIO of the Air Force evaluate the situation, 
and we were told unless this data was really highly 
operationally needed, we should not use it.
    We then went to the Director of Operations to determine if 
we should use it, and the answer was clearly no. Once we were 
told that Chinese data is off the table, we had to find another 
alternative.
    At that point in time, we began several actions. One was to 
go back to the Joint Staff and advise them of this change. We 
provided briefings, and we also began an outreach on the 
military side to work with our allies to see what they could do 
to convince our European allies to move over, and of course we 
outreached to our NOAA partners to see what they could do to 
help us in that regard.
    I think we've been very successful, and the end result is 
we now have what I would call a multi-pronged attack to resolve 
that problem. First, as you've already said yourself, Europe 
has been most cooperative. Meteosat-8 is being moved over. It's 
going to cover the critical components of our operations in 
Syria and Iraq. We will experience a short gap over eastern 
Afghanistan, and our plan there is to work cooperatively with 
India to use Indian data to close that gap.
    Chairman Bridenstine. Now, would that happen immediately or 
is that--you said we're going to have a gap. How long is that 
gap going to be?
    Mr. Stoffler. We don't think that we're really going to 
have a gap. Right now, India--the Indian satellite is already 
operational. It's already there. The data is already available 
here in the United States at a variety of universities. It's a 
matter of getting here quicker and more efficiently so we can 
use it operationally.
    Chairman Bridenstine. Okay.
    Mr. Stoffler. And we're working in conjunction with our 
NOAA partners to make that happen for us, so we feel very 
positive that we're going to be able to do that.
    Chairman Bridenstine. At what point did you guys reach out 
to NOAA to seek assistance? Or did you?
    Mr. Stoffler. I think certainly at my level we had a lot of 
informal talks and what the best way forward was, but we didn't 
really reach out to NOAA formally until after we had made the 
decision that the Chinese data set would not be able to be 
used. At that point in time the Air Force A3 wrote a letter to 
NOAA, NESDIS in particular, asking to see if NOAA could help us 
possibly moving a spare NOAA satellite over the Indian Ocean.
    Chairman Bridenstine. I want to bring up something that 
I've heard as an idea. I'm not saying it's a good idea; I'm 
saying it's an idea, and I want to get your input on it. During 
the George W. Bush Administration, they established the 
National Executive Committee on Positioning, Navigation, and 
Timing to coordinate and provide high-level guidance for GPS. 
It was co-chaired by the Deputy Defense Secretary, the Deputy 
Transportation Secretary.
    The executive committee only meets about twice a year, 
which seems doable even for people who are extremely busy, as I 
know you are. The National Executive Committee has a permanent 
staff, working groups, and includes every agency with GPS 
equities. Is it worth considering a national executive 
committee approach for weather to get attention, coordination, 
and guidance at the highest levels when we face these kind of 
gaps?
    Mr. Stoffler. Certainly from my perspective, Mr. Chairman, 
is that there are a significant number of coordination 
activities that take place already. We've got the Joint Center 
for Data Assimilation. We also work with the Development 
Testbed Center, so certainly at my level and below there's lots 
of coordination that takes place. I find that very effective.
    During the NPOESS era, we actually had a meeting similar to 
that, a senior users' group meeting where NOAA, NASA, and the 
DOD got together pretty routinely to discuss things in a very 
high-level. As you have already attested yourself, the result 
of that wasn't necessarily positive so I'm not convinced that 
adding another level of high-level bureaucracy is going to 
improve the process.
    Chairman Bridenstine. Dr. Volz, what are your thoughts on 
that?
    Dr. Volz. Thank you. I think that the points you make is 
the need for greater coordination at the senior executive 
level. And as Mr. Stoffler mentioned, when the Air Force 
reached out to us after their Chinese assessment and asked for 
assistance, we were able to communicate to them our status on 
GOES but also that we have been working for some time with our 
European partners through an international Coordination Group 
on Meteorological Satellites for covering this particular 
observing system requirement over the Indian Ocean. So that had 
been in work for some time.
    I bring that up because we have global coordination 
activities already in place for meteorological activities for--
across all the major met agencies in the world. And this is one 
example where the need for observations over the Indian Ocean 
was well understood, and there had been a history and we knew 
it was going to be going away and there was a path for an 
interim solution to solve it.
    So I think addressing the collaborative needs wouldn't 
necessarily require an executive committee but greater 
coordination between the DOD and NOAA as we serve in that role 
as the international agent for weather for the United States 
around the world and we have done for many, many years 
effectively.
    Chairman Bridenstine. All right. My time is expired. I'd 
like to recognize the acting Ranking Member, Mr. Grayson from 
Florida.
    Mr. Grayson. Thank you. Mr. Stoffler, I want to 
congratulate you on your origins. As I frequently tell the 
Chair, not everybody can be so fortunate as to be from 
Oklahoma.
    Mr. Stoffler. That's correct.
    Mr. Grayson. Tell me, what kind of data do DOD satellites 
collect other than weather data?
    Mr. Stoffler. If you're making reference to the defense 
meteorological satellite program, we have seven different 
sensors on there, and they collect weather information as well 
as space weather information.
    Mr. Grayson. What are the sensors?
    Mr. Stoffler. Specifically, we have a sounder, we have----
    Mr. Grayson. What's that?
    Mr. Stoffler. The sounder is something where we collect 
information regarding remote sensing of the atmosphere. This is 
data that you would incorporate into the models. The key 
essential that we have on DMSP is the EO/IR capability where we 
actually take pictures of the atmosphere to see the clouds, 
specifically visible imagery and infrared imagery.
    Mr. Grayson. What other sensors?
    Mr. Stoffler. I'd have to give you a precise breakdown at 
another time, sir.
    Mr. Grayson. All right. Well, give me an idea of what 
they're actually used for. What kind of data do they collect?
    Mr. Stoffler. Well, I mean, the primary mission is we take 
the actual pictures, the IR and the vis, and we incorporate it 
into a cloud depiction forecasting system. That is the primary 
purpose of the DMSP. We use the sounding data and we 
incorporate it into our models from a data simulation 
perspective, and we use the space weather centers in--to 
support of our ionospheric modeling system. So those three are 
the primary areas.
    Mr. Grayson. I got the impression from your testimony that 
the information is used to provide--how shall I put this--
weather reports to troops in the field. Is that correct?
    Mr. Stoffler. From the satellite perspective, we use the 
data in two aspects. One, clouds are very, very important to 
the war fighter, so if I'm sitting in the AOR and I'm planning 
a mission or strike and the air operations center wants to know 
five or six hours from now where are the clouds going to be, 
where's the cloud-free line of sight, where am I going to hit 
the target, DMSP provides this data were we can forecast and 
where those cloud-free areas are going to be. So from an RPA 
perspective, from a strike perspective, from a bombing 
perspective, that's where that helps.
    The sounding data we use for the long-range forecasts out 
to 10 days to actually create numerical weather prediction on 
the bigger range weather features.
    The other thing which the DMSP is very critical for is in 
the execution phase. If you want to know where a haboob is 
going to be or where you're going to have severe thunderstorm 
activity, again from an execution point of view, that's what we 
use that data for. And we make the data available via the DCGS 
backbone so they can actually see it downrange.
    Mr. Grayson. Is that information used now or is it just 
something that's been used in the past? Let me be more 
specific. Has it been used in the past 30 days?
    Mr. Stoffler. Yes.
    Mr. Grayson. Where?
    Mr. Stoffler. We use that information each and every day.
    Mr. Grayson. Where do you use that?
    Mr. Stoffler. We use it in, we use it in, we use it in 
CENTCOM, we use it in PACOM, we use it in SOUTHCOM.
    Mr. Grayson. Could you be more specific?
    Mr. Stoffler. Okay. I would say that at Kabul, for example, 
we would use that. At Bagram Air Force Base we would use that. 
We would use it over Syria. We would use it over our operations 
in Iraq. We would use it over places in Russia. We also use it 
in South America. We use it in Korea, and it's used in northern 
Europe. So basically any place where there's a DOD operation 
going on, we would use that data.
    Mr. Grayson. I'm surprised to hear you mention South 
America. What's that all about?
    Mr. Stoffler. We have some counter-drug operations in South 
America, and we actually have a few weather teams deployed down 
there.
    Mr. Grayson. All right. It sounds like the division of 
labor between you all and NOAA is somewhat ad hoc. Is that a 
fair statement?
    Mr. Stoffler. I would not say that it's ad hoc. Our mission 
is very focused OCONUS on military operations.
    Mr. Grayson. But in terms of who covers what, that seems to 
be done almost on a case-by-case basis rather than according to 
some kind of master plan. Is that fair to say?
    Mr. Stoffler. I think you need to look at what I would call 
the international plan. From an international point of view, 
from a data-providing point of view, NOAA certainly provides 
from our perspective the two geostationary satellites, GOES 
East, GOES West. We use the two European satellites, and we use 
a Japanese satellite. We also use a European one. So I think 
there is an international plan of distribution of 
responsibilities regarding data collections.
    Mr. Grayson. Dr. Volz, from your perspective, is the 
division of labor between NOAA and DOD ad hoc or is it 
according to some master plan?
    Dr. Volz. I think the missions of the two agencies are very 
different, and the products and services the two agencies 
provide are different as well. NOAA has a very focused weather 
forecast alerts-and-warnings responsibility for the United 
States, and as part of our global observation generate the 
numerical weather predictions requires global observations. We 
also have oceans and coastal observation requirements, and 
products and services we provide.
    When you think about speaking--it's not my field exactly--
but what the DOD is providing is a very service-oriented 
delivery to their own resources or their own applications. We 
provide a general observation requirement in weather 
forecasting for all users, and it's up to our other users to 
come up with more specific, detailed recommendations in 
forecasts and products for their particular service 
application.
    So I don't think it's overlap in terms of the mission 
requirements. Ours are broader and more general to the general 
populace, and DOD has a completely different mission from ours.
    Mr. Grayson. My time is up. Thank you all.
    Chairman Bridenstine. Great questions. As somebody who 
serves in the United States military, maybe I can help. When it 
comes to mesoscale forecasting in Afghanistan, which is a 
smaller level, in Afghanistan that's not where NOAA is going to 
be serving the war fighter. NOAA is focused on the United 
States of America. The DMSP programs and all the weather 
satellite programs operated by the Department of Defense feed 
models that will ultimately enable me to determine whether or 
not I can use a laser-guided weapon or a GPS-guided weapon for 
a specific target in Afghanistan or some other part of the 
world. Of course, I did counter-drug operations in Central and 
South America as a Navy pilot, and I was very grateful that we 
had excellent weather data down south. It could have been 
better, but my goodness, weather in Central and South America 
changes so rapidly. You literally see the thunderstorms 
growing.
    I'd like to now recognize Mr. Moolenaar from Michigan.
    Mr. Moolenaar. Thank you, Mr. Chairman. And I want to thank 
our witnesses today.
    I want to begin with Mr. Stoffler. If you--just on--after 
canceling the Defense Weather Satellite System, the Department 
of Defense initiated an analysis of alternatives for space-
based environmental monitoring, and it's my understanding that 
the conclusions of this analysis prioritized a number of 
mission-critical issues for Department of Defense to pursue, 
and I just wanted to get your perspective. Is Department of 
Defense pursuing all the mission areas as prioritized in this 
analysis of alternatives?
    Mr. Stoffler. Thank you for that question, sir, and yes, we 
are. We are pursuing all of them. When we did the analysis, we 
reviewed the initial requirements of the NPOESS program. We 
revalidated 11 of the 12 original requirements as having clear 
military utility, and then we determined that a significant 
number of the needs that we had could be met by existing 
national and international assets, so we're focused on--only on 
buying material capabilities for gaps 3, 8, and 11, i.e., 
tropical cyclone monitoring, ocean vector winds, and the space-
based energetic charged particle sensors.
    Mr. Moolenaar. So you feel that this plan is helping to 
mitigate these gaps?
    Mr. Stoffler. No question, yes, it is.
    Mr. Moolenaar. Okay. Ms. Chaplain, would you--any comments 
on that assessment at all?
    Ms. Chaplain. A couple things. I would add that the first 
two capabilities, cloud characterization, theater weather 
imagery, there are still questions about how to meet those 
capabilities, and DOD is still studying that after the AOA. 
During the AOA, they consulted some with NOAA on the 
possibility of using European satellites to fill some of those 
gaps, but because they didn't consult with them enough, they 
didn't get information that helped them form good assumptions 
for that study. So that's a still the question up in the air, 
those two capabilities.
    Mr. Moolenaar. Okay. Thank you for that feedback.
    Mr. Powner, I wondered, I understand that NOAA needs to 
launch the first polar satellite JPSS-1, as well as the follow-
up JPSS-2 to have a more robust system, and after that, when 
does NOAA need to launch the remaining two satellites?
    Mr. Powner. Well, I think that's still in question. When 
you look at--our main concern is the potential gap right here 
and now between NPP and J-1. I think when you look at the plan 
for J-2 and you look at the follow-on programs, J-3 and 4, 
those gaps go away. They really go--the near-term issue is with 
ATMS on NPP and will it last long enough until we get J-1 up 
there and transition over to the ATMS on J-1. That's, I think, 
the key question in the near term.
    When you look at the out year, there is a robust 
constellation being planned. In fact, they're even planning to 
store satellites 3 and 4, the follow-on programs, for 
relatively 2 to three years and then 5 to six years. That's the 
current plan. So after we get past this first hurdle, I think 
the robustness begins.
    Mr. Moolenaar. Okay. And are we saving money by building 
satellites now? Is that your understanding?
    Mr. Powner. Well, that's the key question. When you look at 
the out-years satellites, there's economies of scale to go 
ahead and build these things quicker, especially if we're 
replicating what we're doing on J-2. And we get that. And we 
ought to take advantage of that. And we also ought to take 
advantage of some firm fixed prices because we've done these 
things. There's opportunities to save money.
    But there's also a challenge with building them quickly and 
storing them. There's a cost with that. And you've also got to 
balance that with the annual appropriation process. How do you 
balance all those things? And I just think NOAA needs to be 
real clear in their plans forward that we're justifying the 
best decisions to ensure robustness but still do it where we're 
fiscally responsible.
    Mr. Moolenaar. And then are you concerned at all about 
there may be emerging technologies that if we build things now 
that we wouldn't be able to take advantage of those new 
technologies?
    Mr. Powner. Absolutely. I mean, there's always, you know, 
leaps with some of these technologies that help with the 
forecasting with our observational sensors and the whole bit. 
So again, you know, we don't want to--there's some sweet spot 
in there, and what--finding that sweet spot where we store not 
excessively ensuring that we can actually enhance some of the 
sensors going forward, and I think finding that sweet spot, 
it's still kind of a TBD in our mind.
    Mr. Moolenaar. Okay. Well, thank you very much.
    And, Mr. Chairman, I yield back.
    Chairman Bridenstine. The gentleman yields back.
    I now recognize the gentleman from Texas, Dr. Babin, for 
five minutes.
    Mr. Babin. Thank you, Mr. Chairman. And thank you, 
witnesses, for being here today.
    Dr. Volz, it's my understanding that NOAA relies on data 
from the three distinct polar orbits, early morning, 
midmorning, and early afternoon, which are all being filled by 
different partners, NOAA, DOD, and the European satellite 
program, EUMETSAT. How important is each orbit?
    Dr. Volz. In order to generate accurate forecasts and for 
our numerical weather modeling, we need distributed data and 
observations from around the globe as frequently as possible. 
The models we use right now are--rely on all three orbits for 
provision of data. So the timing, those 6:30 a.m., the 9:30 
a.m., and the 1:30 p.m. timing are equally important to the 
generation of our data models in our forecasts.
    Mr. Babin. Okay. So the data from each orbit is weighed 
equally when integrated into numerical weather models? Is that 
the way that works?
    Dr. Volz. I say the distribution of the timing of the data 
are equally important. You need that snapshot from different 
times of the day. We have different sensors in the different 
orbits, so some are more powerful than others, so the impact of 
individual measurements from an afternoon orbit may be more 
than the early-morning orbit because of the quality of the 
instrument--
    Mr. Babin. I see.
    Dr. Volz. --but you need at least the weather and 
temperature soundings at those three orbits to support the 
overall numerical weather modeling.
    Mr. Babin. Okay. What would be the degradation of our 
weather forecasts if there was a gap or if a partner decided 
not to fill a certain orbit?
    Dr. Volz. We've looked at over the years answering that 
question as we went through the generation of the JPSS program 
in a few years ago looking at what we called data denial 
studies or analyses of the impact of the loss of a particular 
orbit. And it does show up as a reduction in the accuracy of 
the forecasts in the three- to five- or seven-day forecast 
period when you remove one leg of that three-legged stool. And 
I can give you the specific numbers. I can't quote them off the 
top of my head, but there is a marked change in the accuracy of 
the forecast in the short-term forecasts with the loss of any 
one of those three.
    Mr. Babin. Well, if you can't provide exact figures, can 
you commit to this committee to do the appropriate research and 
studies to determine the exact benefit, importance of each 
separate orbit?
    Dr. Volz. Yes, sir, we can take that
    Mr. Babin. Okay.
    Dr. Volz. --and respond.
    Mr. Babin. Okay. Thank you.
    Mr. Babin. And then I'd like to ask several of you, as with 
most other government satellite acquisitions, weather satellite 
acquisition efforts consistently have experienced significant 
cost increases and schedule delays. Why is this so, and what 
can be done to your knowledge? Has anyone met cost schedule and 
performance goals with their weather satellite acquisition 
efforts? And I would say, Mr. Powner, if you would go first.
    Mr. Powner. Well, clearly, I think there's a lot of lessons 
learned looking at what happened with NPOESS and why we had 
such huge cost overruns in launches and delays in planned 
launches. One of the big things you can start with is the level 
of complexity that was associated with NPOESS. At one time 
there was an excessive amount of sensors. We got down to five. 
I think decreasing the complexity is the first start in 
ensuring that our requirements are real solid. Many times we 
ask for so many things in our requirements have a lot of nice-
to-haves, but what do we essentially need. So that's been a 
real lesson learned looking back over the--both the GOES and 
the JPSS programs.
    Mr. Babin. Okay. And how about Colonel Stoffler if you 
don't mind?
    Mr. Stoffler. Well, I can certainly echo, sir, what was 
already mentioned, having been part of the NPOESS program. We 
tend to want to really build capabilities, which advances of 
the future. So if you make requirements that take you far in 
advance, there's increased risk. And if you look at DMSP, when 
you go from a capability that has two channels and you try to 
go to 24 channels, that really causes a lot of risk. So 
certainly from the DOD perspective, if you state requirements 
which are reasonable and allow you to do what you need to do, 
that's a key way of controlling cost.
    Mr. Babin. Okay. And then we probably have enough time for 
one more answer between Ms. Chaplain or Dr. Volz, whichever 
one.
    Ms. Chaplain. I like to add to that just because our work 
consistently looks at this question. I would add in addition to 
the issues which are very legitimate, oftentimes satellite 
programs attempt to invent technology during the acquisition 
phase, so if they run across natural discovery problems during 
that phase, it has a lot of repercussions that drive up costs 
and schedule.
    In the case of NPOESS, oversight was a very big problem, as 
well as coordination among the three agencies. And I think 
weather satellites tend to be a little harder to do because of 
that. They span so many communities. You have to bring a lot of 
stakeholders together and work effectively to manage the 
program right. So I think going forward both agencies need to 
look at that issue.
    Mr. Babin. Okay. That's great. Did you have something you 
wanted to say, Dr. Volz?
    Dr. Volz. Yes, please. I'd like to respond to that. I agree 
with both the points of our GAO representation--representatives 
have made. It's consistency and clarity, consistency of the 
requirements and clarity of the mission I think which are key. 
And the NPOESS example was a forced marriage between different 
organizations with different service provisions that we talked 
about earlier.
    And I think the lesson was learned, and it has been applied 
on our JPSS program. In fact, since the 2011 initiation, we 
have held the Q-2 fiscal year 2017 launch date for the JPSS 
mission for the last five years plus. So we've been able--with 
changes and challenges that we have in development, we've 
managed to keep that launch schedule on track. And we've 
addressed the changes in requirements by holding to a firm 
baseline of requirements, and that's the provision of the 
follow-ons is that we do not want to change the mission now 
when we have a proven instrument, a proven complement. We can 
build it again with reliability and with an accurate cost and 
schedule.
    Mr. Babin. Thank you. And thank you, Mr. Chairman. My time 
is expired.
    Chairman Bridenstine. I'd like to thank the gentleman from 
Texas.
    We're going to move into a second round, and I'd like to 
start by asking Dr. Volz one of the things that came out of the 
GAO report has been the challenge that we've had with the Suomi 
NPP expected life, and now it's been extended. I don't think 
anybody doubts the fact that Suomi NPP is going to be around 
longer than the expected life at the time of its launch. I 
think one of the concerns we have is that the process and the 
procedures, the clarity for how we go about extending that 
life, and--from our perspective it might look like it's 
subjective. Can you give clarity on how you make that 
determination, and then maybe in the future have published 
standards or something that determine how we move forward so 
then there isn't a question about why it was changed.
    Dr. Volz. Yes, sir, and thank you. That's an excellent 
point. And that was part of the dialogue we've been having with 
the GAO over the past couple of months about how we do our fly-
out charts, how we do our projections. One case of terminology, 
we don't extend life. We update our analysis on the projection 
of probable life. We don't decide to terminate or to extend; 
it's whether the satellite is functioning or not. And we use 
our analysis, our understanding of its performance to see how 
far we can project that performance into the future.
    So what we have done with Suomi NPP, different from our 
legacy satellites is from the start done statistical analysis 
of the instrument capabilities, the instrument performance, the 
spacecraft lifetime, the operations of it, how it wears out 
over time. And based on the information from the satellite and 
the general understanding of our electronic parts and hardware, 
in the whole aerospace industry, come up with projected 
probability of success or P sub S for these satellites into the 
future.
    That is our new baseline approach for Suomi NPP, and it 
will be for JPSS and for our GOES satellites going forward. It 
was not a methodology that was applied in the previous years, 
so when we try and apply that same rigor to legacy satellites 
which don't have the basis of information that we started with, 
it's hard to retrofit that analysis. So we're not going to be 
able look at a POES satellite launch 15 years ago and apply the 
same rigor of analysis that we can to JPSS. We don't have the 
basis. But our plan is to have a transparent process for how we 
do this on an annual basis, how we update our fly-out charts, 
where the assumptions that are built into it are stated, and 
then we can discuss whether they're appropriate, but they're 
clearly stated for all to see.
    Chairman Bridenstine. That's great. We thank you for that. 
When you think about the NOAA-16 satellite that broke up 
randomly--and I shouldn't say randomly. It broke up. And do you 
have any clarity on that? And one of the concerns we had is 
could that same fate be the fate of Suomi NPP?
    Dr. Volz. So given the--the answer to the first question is 
I don't have clarity on the exact breakup reasons for NOAA 16. 
It was non-communicative at the time. It had been inert for 
some time, so it spontaneously devolved or broke up. So we 
don't know the root cause. We can speculate on what they might 
be.
    But whether it was something internal to the spacecraft or 
a micrometeor object debris, those effects and those risk 
factors are factored into our analysis of Suomi NPP. So we 
routinely, for example, do debris-avoidance maneuvers for Suomi 
NPP when we know based on our tracking that there are potential 
conjunctions with other debris. So we are mitigating that to 
the extent that we can, that we can see these objects.
    As I mentioned before, the health and status, the battery 
life, the propulsion systems in the satellite we monitor on a 
regular basis, so spontaneous explosion or breakup from 
anything internal or tracking the engineering capabilities very 
carefully on the spacecraft to know whether or not that's a 
possibility and mitigating them if we see any effects.
    Chairman Bridenstine. Okay. Got it. I wanted to ask about 
the commercial pilot program, commercial data program. Can you 
give us an update where you are on that and how it's going?
    Dr. Volz. It's going at a relatively breakneck speed. I 
know that may not seem like that to the commercial side, but to 
the government side, it is relatively quick. We have--since 
the--beginning of this fiscal year with the authorization for 
the weather data pilot, we have, as you mentioned in you, or I 
think Bonamici mentioned in her opening, we have released our 
process for evaluation. We released an RFI to the community for 
opportunities for provision of data for us to evaluate as part 
of the pilot process, and we currently have on the street a 
draft Request For Quotations from the commercial industry to 
sell data to NOAA, to NESDIS for us to evaluate radio 
occultation data for suitability in our use for weather 
modeling. We expect that to be closed in a couple of weeks. We 
actually have industry day this afternoon to answer questions, 
and the actual request will go out in early August. And our 
target is to have data on hand from vendors or at least under 
contract by the end of this fiscal year.
    The challenge right now is that the available data is an 
empty set. There are no observing commercial systems out there 
now providing data that we can use. That's why we asked for an 
extension to fiscal year 2017. And the RFQ will actually ask 
for data up through April of 2017, for--anticipating the launch 
of these assets in the next 6 months so that we can get those 
data on board, pay for them, and do our evaluation process 
internally.
    Chairman Bridenstine. Got it. And then, Mr. Stoffler, the 
two highest priorities of course for CENTCOM--cloud 
characterization and theater weather imagery--there are 
commercial capabilities that are out there that might not be in 
space just yet but are planning launches as early as 2019. One 
of them would be hyperspectral capabilities. Would those 
capabilities be valuable to you for cloud characterization or 
theater weather imagery?
    Mr. Stoffler. You are right on the money, Mr. Chairman. 
Those capabilities would be very valuable to us, and we are 
waiting with great anticipation when that data becomes 
available.
    Chairman Bridenstine. Now, is there a way that the federal 
government on the Department of Defense side could partner with 
a commercial company knowing full well that eventually the 
commercial company will have customers that aren't necessarily 
the Department of Defense but could be the agricultural 
industry, could be the insurance industry or the transportation 
industry, shipping industry, but to signal to the markets that 
there is a demand from the Department of Defense for this kind 
of capability? Are there ways of partnering today so that we 
can help get this industry going?
    Mr. Stoffler. We have what's called a CRADA, a relationship 
with a variety of different organizations, both government and 
industry, which we can leverage to advance these types of 
capabilities. We've also done--just like NOAA has, our program 
office has gone out and done a request for information to see 
what's available out there. And as you've already indicated, 
our biggest issue right now is that there is nothing to buy. So 
we're waiting for that to happen.
    Chairman Bridenstine. Is it possible to do a partnership 
where maybe the private sector would provide the data for free 
to the Department of Defense? In return, the private sector 
would get an EELV launch or some kind of partnership like that?
    Mr. Stoffler. I'd have to speak to our acquisition agents 
to give you a proper read on that, sir.
    Chairman Bridenstine. Okay. I'd like to recognize the 
acting Ranking Member, Mr. Grayson, for a second round of 
questioning.
    Mr. Grayson. Thank you. Dr. Volz, the 2013 NOAA, NESDIS, 
and NASA independent review team made several recommendations 
regarding the weather satellite programs and putting them on 
what was referred to as a robust state. Do you know what they 
meant by robust?
    Dr. Volz. Yes, sir. The robust means essentially single-
fault tolerant or two failures to a gap, which means you can 
lose any major on-orbit asset and have a second one ready to 
support the same mission, provide the same information content 
without interruption. So that would require redundant 
capability on orbit at the same time.
    We are in that situation, for example, right now with the 
geostationary satellite constellation. We have two active and 
one is a backup for either of the two so we could lose one and 
a satellite could move over and give us the same coverage. We 
are not in that condition right now in the polar because 
although we have legacy POES satellites, they are not as 
capable and not as functioning at the capacity of the Suomi NPP 
satellite.
    So when we look at the JPSS-1 and the JPSS-2, getting to 
the JPSS-2 launch so we have both J-1 and a J-2 on orbit both 
effectively in their prime of life, get you to that condition 
of robustness where you have two fully functioning satellites 
in their prime lifetime ready to support the mission.
    Mr. Grayson. So robustness in this case just means having a 
backup, is that correct?
    Dr. Volz. It's on orbit ready redundancy effectively, yes.
    Mr. Grayson. All right. Apart from what you just said, is 
there anything else that needs to be done in order to secure 
that condition?
    Dr. Volz. The robust condition, that is one approach. That 
is one piece of the robustness. It also requires the overall 
observing system is ready and available and functioning as 
well, which includes not only those two satellites, but as we 
mentioned that we have other assets in the morning orbit from 
the Europeans and the early a.m. orbit from the DMSP and from 
other partner satellites that we have a functioning ground 
system which is redundant and capable to handle. If we have a 
hurricane come through in one, we have a backup system, we have 
redundant antennas, et cetera.
    So the overall observing system on the NOAA piece needs to 
be robust and reliable, and the observing system of a global 
system needs to be able to provide the data that we rely on. 
Quite frankly, our partnership with the Europeans is essential 
as part of our collaborative efforts going through the years. 
And their constellation robustness is as strong, their 
requirements are as strong as ours.
    Mr. Grayson. All right. Regarding NOAA's commercial weather 
data pilot, what other kinds of data can you consider as being 
likely or possible for future acquisition?
    Dr. Volz. When you talk about the future capabilities, 
there are potentially a number that are likely to be coming 
around in the near term that are not yet available. Chairman 
Bridenstine mentioned hyperspectral as one possibility. There 
are a number of small satellite or even CubeSat versions of 
sounders that are being planned or--NASA is working on 
launching and we're working with NASA to understand the planned 
capabilities there.
    You look for areas where technologies are scalable to 
smaller size or affordable by venture capitalists or small 
companies and can meet our requirements. So those three factors 
fold in in a couple of potentially significant ways, like I 
mentioned, hyperspectral, microwave sounding, and additional 
radio occultation.
    Imagery has already gone through this transition. We're not 
a big imagery buyer, but industry is already seeing that there 
are commercial applications.
    Our Commercial Weather Pilot focused on radio occultation 
first and foremost because that was the most mature of these 
potentially emerging capabilities, but I fully expect that as 
we continue our engagement with the commercial sector, as we 
look at our strategic plan for the next emerging capabilities 
for our constellation, that there will be others who are 
reaching that same level of maturity that will need to be 
evaluated for their suitability for our measurements.
    Mr. Grayson. So what kind of time frames are you 
anticipating for the other data sets?
    Dr. Volz. For the immediate future we're focused right now 
on the radio occultation in the fiscal year 2016, fiscal year 
2017. We are looking at options in fiscal year 2017. We've 
issued another call for interest on other measurements. 
Hyperspectral may be one, I mean, without tailoring it to 
specific targets seeing what else is likely to be in the market 
available. We are moving forward on our space weather 
architecture and there are potential, and have been expressed 
interest in providing space weather observations that could be 
useful as well. So these are areas in the '17 in the near-term 
time frame that may be viable for satisfying.
    Our focus has to be on understanding the capabilities and 
seeing how they match our requirements and our observational 
needs. We are a requirements-driven organization, so we look to 
what our requirements are and how they can best be met. And we 
consider commercial emerging along with government-built as 
the--what would be the best match to meet our mission 
objectives.
    Mr. Grayson. Can you be more specific about what time 
frames we're talking about, how many years out and so on?
    Dr. Volz. Right now for radio occultation we have seen 
suggestions of launches in the next year. So that would mean we 
would be looking at data from an RO system potentially by this 
time next year or in fiscal year 2017 that would be ready for 
evaluation. For these other hyperspectral, it's more suggested, 
and it would depend on the maturity and the development pace of 
the industry itself. I would not be surprised to see something 
in the '18 to '19 time frame or there'll be potential 
demonstrations on orbit at some of these others, but it depends 
on sources and investments by others outside of our 
organization.
    Mr. Grayson. My time is up. Thank you all again.
    Chairman Bridenstine. I'd like to thank the gentleman from 
Florida.
    The gentleman from Texas, Mr. Babin--Dr. Babin is 
recognized for five minutes.
    Mr. Babin. Thank you, Mr. Chairman. I appreciate it.
    Colonel Stoffler, one question I hear that I have for you, 
let me read you a portion of the national space policy signed 
by President Obama in 2010. The Secretary of Commerce through 
the NOAA Administrator, the Secretary of defense through the 
Secretary of the Air Force, and the NASA Administrator shall 
work together and with their international partners to ensure 
uninterrupted operational polar-orbiting environmental 
satellite observations. The Secretary of Defense shall be 
responsible for the morning orbit and the Secretary of Commerce 
shall be responsible for the afternoon orbit. Are you familiar 
with this national policy?
    Mr. Stoffler. Yes, sir, I am.
    Mr. Babin. Currently, does the DOD have a plan and money in 
the budget for maintaining the morning orbit? If not, why is 
DOD going against national policy?
    Mr. Stoffler. Sir, at this particular time we're meeting 
the national space policy objectives as long as DMSP continues 
to be in orbit. Final decisions haven't been made on weather 
satellite follow-on, but if we launch WSF in the morning orbit, 
I believe that we're meeting the objectives of national space 
policy.
    Mr. Babin. Okay. All right. I understand that NOAA--this is 
for you, Mr. Powner, I'm sorry. I understand that NOAA needs to 
launch the first polar satellite, JPSS-1, as well as the 
follow-up JPSS-2 to have a more robust system. We've mentioned 
earlier this morning. After that when does NOAA need to launch 
the remaining two satellites?
    Mr. Powner. Well, I think that's what's--currently right 
now I think the plan is to launch in the 2024 and '26 time 
frames those two satellites and then actually they would be 
stored for a period of time. So, for instance, J-3 I believe 
the current plan is to launch 2024 and to store for about 2-1/2 
years into 2026. With J-4 the plan would be in early 2026 to 
have it ready to go in storage and launch in '31.
    Mr. Babin. Okay. Thank you. Is NOAA and the federal 
government actually saving money by building satellites now?
    Mr. Powner. They could be because of the economies of 
scale, but the--you know, you've got to offset that with some 
of the storage costs. We understand that is in excess of--
although if you look at what happened with DMSP 20, that ended 
up being in excess of some of the storage costs there. Again, 
we've got to find what's that right area where we're building 
it and having this robust constellation that Dr. Volz referred 
to.
    But also, too, you need to balance that with Congressional 
budgets. We know that both the GOES program and the JPSS, those 
two programs consume a large portion of NOAA's budget. So if in 
fact you could address other priorities at some point and hold 
off those out-year satellites, maybe that's the appropriate 
thing to do that--we would just like to see the analysis 
provided to Congress, not only this committee but we get the 
same questions from the appropriation committees whether this 
is the right cadence and sequence for the out-years satellites. 
And it's really in NOAA's court to prove that that is the best 
cadence with those out-year satellites.
    Mr. Babin. Okay. And then one more question for Dr. Volz in 
regard to the SNPP and the ATMS instrument onboard, if the ATMS 
instrument fails on SNPP, what would be the backup for its 
measurements until JPSS-1 is operational?
    Dr. Volz. We have no immediate backup in orbit for the 
ATMS. However, for the observing system requirements, ATMS is 
one of a number of observations. You asked the question earlier 
what does the loss of one satellite mean, and we can get back 
to that specific answer. The loss of one instrument on one 
satellite has an impact as well, but the system itself has 
multiple observation points that are brought in that are used 
as part of the numerical weather forecasting modeling. I don't 
have the exact result to tell you what the specific impact 
would be for the loss of ATMS. I can get that back to you. 
We've done these studies in the past.
    But the overall observing system, as we've talked about 
already here, relies on multiple observations from multiple 
points, so the loss of any particular asset, while unfortunate, 
doesn't derail the entire observing system. It's an impact that 
has to be absorbed if we don't have a backup for it in place at 
the same time, which is the point of getting to the robust as 
quickly as we can.
    Mr. Babin. Thank you, Dr. Volz, and I'll----
    Chairman Bridenstine. The gentleman yields back.
    Mr. Babin. Thank you.
    Chairman Bridenstine. Thank you, Dr. Babin.
    We'll go into a third-round as long as people are sticking 
around. You're not--well, I'll ask a few questions then if 
that's all right.
    I wanted to bring up a couple of challenges that we've seen 
within the Department of Defense and how we've applied some 
solutions in the Department of Defense when it comes to the 
space-based communications, for example. We now lease about 80 
percent of our communications over the horizon from commercial 
assets.
    Now, that does a number of things for us. Chief among them, 
it gives us the capacity and the throughput necessary to get 
the information and the high-resolution, motion picture imagery 
from the place where it is to the place that it needs to go. 
That's number one. But number two, it also distributes the 
architecture very rapidly in a way where it complicates the 
targeting solution for our enemies. And of course we've seen 
the Chinese and the Russians both advanced anti-satellite 
directive-sent missiles, which are of concern to those of us on 
this committee and on the Armed Services Committee. What--so 
that partnership that we have with commercial industry to do 
over-the-horizon indications I think is very valuable.
    We've also seen for narrow-band communications, we've seen 
the success of Iridium, which was a partnership between the 
Department of Defense but also international partners, and it 
was, you know, provided--financing initially for Motorola, but 
eventually there was financing from a venture capital kind of 
capability that came together. And now the Department of 
Defense is using Iridium very robustly around the world.
    I would also say when it comes to remote sensing and 
imagery, we've seen the National Geospatial-Intelligence Agency 
move forward on a commercial space policy where they're buying 
imagery from space from commercial operators and they're going 
to continue to do that. Again, it complicates the targeting 
solution for the enemy by distributing the architecture, and it 
also gets us more data, better data, higher revisit times, 
things like this.
    Are there partnerships like that when you think about 
defense weather? Could we develop a partnership similar where 
maybe we have a satellite bus and we attached to it payloads 
that are necessary for cloud characterization or necessary for 
theater weather imagery? And in this era of defense sequester, 
which is damaging our Department of Defense, create more robust 
partnerships that would be good not only for the Department of 
Defense in bringing down costs because when you purchase from 
commercial, you ultimately have more customers than just the 
Department of Defense, which shares the cost but also 
distributes the architecture?
    Mr. Stoffler, could you comment? Are you guys having those 
kind of conversations about bringing down cost, distributing 
the architecture, and ultimately getting more data, better 
data, and higher revisit times?
    Mr. Stoffler. I appreciate that question, Chairman, and 
again, you're right on the money. We are indeed going down that 
pathway. The first example of that is already what we're doing 
with gap 11. We're going to build a very small space weather, 
and instead of sticking it on to one big huge weather 
satellite, we're going to add that particular sensor to all 
future Air Force satellites. So by using disaggregation and 
placing individual weather sensors onto existing satellites, I 
think we can get a better picture, a higher refresh rate, and 
bring down overall costs and of course have more resiliency in 
the constellation as well.
    Chairman Bridenstine. Could you host those sensors on 
commercial payloads that would even give us more opportunities 
to launch, more opportunities to put those sensors in space?
    Mr. Stoffler. I would be inclined to say that you probably 
could, but again, it would be to our acquisition experts to 
make that determination.
    Chairman Bridenstine. Okay. One other challenge that I see 
ahead of us, being from Oklahoma, on these issues I don't 
really have any parochial interest, other than the fact that I 
have constituents that die from tornadoes. My mission here is 
to get as much data, the right data so that we can ultimately 
move to a day where we have zero deaths from tornadoes.
    Now, I know what we're talking about generally here is the 
macro scale global initial conditions for weather forecasting, 
but my concern is that as we go forward with a commercial 
capability, we're going to have a lot of data. And when you 
think about hyperspectral, when that capability comes online, 
there's going to be a lot of data. One of my concerns is how do 
we assimilate all that data into our models? Is that possible 
now? What do we need to invest in? How can this committee be 
helpful?
    Mr. Stoffler, I'll start with you and then will go to Dr. 
Volz.
    Mr. Stoffler. Again, a very critical question, and I 
appreciate that, Mr. Chairman. Certainly on the DOD side we 
recognize that. We have developed an architectural design to 
revamp our entire computing system to increase computing 
capacity, remove legacy systems. We're going to a 4D-Var 
assimilation scale, and we certainly believe that by the 2021 
time frame our new architecture will be able to do all the 
things that you've addressed.
    Chairman Bridenstine. And do we need additional modeling 
capabilities? Do we need additional computing capacity? Are you 
saying that you're good and you have everything you need to 
move out?
    Mr. Stoffler. I think from an Air Force perspective we've 
developed the plan. The Air Force has been very supportive, and 
we're on path by 2021 to meet our objectives.
    Chairman Bridenstine. Dr. Volz?
    Dr. Volz. I think you pinpoint the exact challenge we have 
is that we're in an age of explosion of data availability, and 
the utilization of it effectively is going to be our greatest 
challenge. And it's not just satellite data. It's incorporating 
and merging satellite data with in situ ground data, airborne 
data to get a better holistic pitcher of what's going on. And I 
think it's always going to be--we're always going to be running 
uphill on this and trying to get greater computing power. As we 
bring in more data, as we simulate more data sources, the 
challenges are going get more and more challenging.
    So even though at this point we've come a long way in the 
past three years with our high-performance computing within 
NOAA and it's enabled us to ingest other data sources as part 
of our gap mitigation efforts to support the polar 
constellations, but now with the launch of GOES-R coming on in 
just a few months, which is going to have a significant--60-
fold increase in the data rate that we see from now-casting, 
how we integrate those data sets into the weather forecast on 
modeling in the offices is going to challenge us as well.
    So there will always be need for incremental and sometimes 
leaps-forward steps in high-performance computing and the 
modeling to ingest these new data sets. So I would never be 
comfortable saying we're good where we are now. We are using 
what we have, but we're always trying to figure out how to 
bring these other data sets in more efficiently and more 
effectively. It's going to be an ongoing challenge for as long 
as we're working on this.
    Chairman Bridenstine. Excellent. Earlier, Mr. Stoffler 
mentioned that the Department of Defense is not going to accept 
data from the Russians or the Chinese. Does NOAA have a 
position on that?
    Dr. Volz. NOAA does not use Russian or Chinese data in our 
modeling and in our forecasts. We work with the scientific 
community, with the academic community. Where the data are 
available through our international partnerships, where the 
data are available for assessment and analysis, and we are 
working with our academic partners to understand the 
capabilities. And they are getting stronger and better. So 
there is enticing the availability or the quality of the data 
that are available. We are not at this time using them as part 
of our primary products and services.
    Chairman Bridenstine. But there's not a policy position 
that says we won't use them?
    Dr. Volz. I don't know if there is or not.
    Chairman Bridenstine. Okay.
    Dr. Volz. We're not using them at the moment. I do not know 
what the official policy might be on this.
    Chairman Bridenstine. Okay. I'd like to yield to the acting 
Ranking Member, Mr. Grayson from Florida.
    Mr. Grayson. Dr. Volz, the May GAO report reviewed NOAA's 
basis for initiating work on the polar follow-up satellites on 
the basis that they wouldn't actually be put into use for a 
decade or more. What is the agency's position with regard to 
the GAO's recommendations and their observations?
    Dr. Volz. There are a number of observations in their 
report, and I think Mr. Powner has talked about the challenge 
of building efficiency versus developing stale satellites which 
sit around for a long time. And we've look very carefully at 
the lessons from our own POES and from DMSP of how long those 
satellites should be in storage and how much you want to be 
able to refresh technology.
    And I think the point was made that we need to show how our 
plan is robust and appropriate mixture of stability and 
requirements but also efficiency and production and 
procurement. So I believe that the approach that we have as 
we're going through this year, this calendar year of the final 
program review of what the approach would be for the launch 
cadence, for the launch development cadence for the PFO 
instrument satellites will address those questions.
    I think what we have is we're doing two things at once. 
We're building at the most effective price-wise point to build 
these satellites, but we're also building to get to that robust 
constellation as quickly as we can. It only takes one launch 
failure to disrupt an entire plan of what your launch cadence 
should be. So we want to be able to have a satellite in storage 
and ready when we need it, but we don't want to have it sitting 
in storage for 20 years.
    I think we've got the right balance in the way that we've 
built and we plan on testing and storing the satellites, again, 
taking lessons from other satellite histories to do this 
appropriately for the JPSS PFO program.
    Mr. Grayson. When we launch a satellite today, are we 
putting in the same instruments and sensors that we put in 10 
or 15 years ago?
    Dr. Volz. No. The JPSS and the GOES-R satellite series are 
leaps forward in capabilities and instrumentation. It is the 
next generation, particularly for the GOES that we're seeing in 
the launch this fall. JPSS is leveraging the instruments that 
were developed in a research basis for the Suomi NPP satellite, 
which was launched in 2011. The JPSS-1 through 4 satellites 
will have those same instruments, so there is effectively 
consistent performance and observations set that we will have 
for the next 20 years from those four satellites. GOES-R will 
have a similar 20-year period from '16 to the mid-'30s.
    That doesn't mean our observing system is stagnant at that 
point. We've talked about all these other emerging 
capabilities, the other international partnerships that are 
bringing their satellites in for the commercial side. That 
backbone of those foundational measurements that are going to 
get from JPSS and GOES complement and support the other 
measurements that come in. And then we have the challenges that 
Chairman Bridenstine just mentioned of merging those different 
data to an integrated system which provides a much more 
holistic and higher-quality understanding of the environment 
that we're trying to provide.
    Mr. Grayson. Well, if we're using dramatically different 
instruments and sensors than we did 15 years ago, doesn't it 
follow that we'll want to do the same thing when we do a launch 
10 or 15 years from now when we basically have to completely 
revise the guts if you will of the satellite before it's going 
to have full functionality for launching 10 or 15 years from 
now?
    Dr. Volz. Excellent point in that what we're launching in 
15 years from now or 20 years from now is the next generation 
following what we have right now. So we are in the process 
right now of starting a next-generation mission assessment and 
development, our architecture studies of what should be the 
leap after JPSS and GOES-R. There's a generational cycle of 
major performance upgrades, and whether it's 10 or 20 years, 
it's 20 years roughly where you have that basis where you get 
used to using those instruments where all the modeling and all 
the forecasters are using them, and you add incrementally from 
other satellite observations increased capacity.
    And then, as we have this basis for JPSS, we are now 
looking at what should be the thing that follows, launching in 
the 2030s. And we'll do that with testing and demonstrations 
with commercial satellite examples, with NASA research and 
other research satellites that are demonstrating capabilities. 
And we'll be able to pick from those on-orbit experiments the 
best step forward as opposed to just sitting in an a priori 
position, saying I know what it should be. We get to 
demonstrate with these research satellites and with the 
commercial side to then decide what's the most effective path 
forward for the backbone of the next generation, which will be 
launching in the mid-'30s.
    We will start building that in the next few years, but we 
won't deploy it until after these four satellites, this 
constellation is gone.
    Mr. Grayson. Well, to be as specific as possible, did the 
agency assess the likelihood that the polar follow-on 
satellites would have to be--how shall I put this--updated 
before being put into actual use, having been built now with 
technology developments coming in the next decade or decade and 
a half? And if so, what was that assessment and how much do you 
think it might cost?
    Dr. Volz. Yes, we did, and we actually made a conscious 
decision a year ago, as we rolled out the plan for the PFO, 
that we would hold the requirements baseline for the PFO JPSS-3 
and 4 satellites to the same standards we set for JPSS-1 and 2. 
We did that consciously aware of exactly the point I think that 
Ms. Chaplain mentioned is that when you change requirements on 
the system in the middle, you're basically developing a new 
system and you lose all control of your cost and schedule. We 
made that conscious decision that this suite of four satellites 
would be consistent, and we have now the contracts in place for 
the spacecraft, for all the instruments so that we can 
accurately project and deliver those instruments.
    But the system evolves, and the system then brings other 
capabilities in addition to the JPSS. So the overall capability 
of observing is going to increase and improve over time, but 
this portion of it is going to be stable, and the funding and 
the requirements will be well defined and well characterized.
    Mr. Grayson. I'm out of time. Thank you all.
    Chairman Bridenstine. I'd like to thank the gentleman from 
Florida for his, quite frankly, great questions. I think you're 
hitting on a critical thing that we need to be talking about on 
this committee, and that is technology insertion plans. One of 
the reasons I think commercial is so important--and I want to 
be really clear. I support JPSS. I want to make sure JPSS is 
fully funded, but I do believe commercial is important because 
commercial satellites are being launched with miniaturization 
of technology, miniaturization of electronics. We're going to 
be able to launch a lot more satellites in more distributed 
architectures that again complicate the targeting solution for 
the enemies but also with smaller satellites you can launch 
more of them, you can launch them more frequently. When you 
have new technologies that arise, you can put them in orbit 
very rapidly.
    I would also say one of the areas that I've been pushing on 
is the hosted payload concept where every time a commercial 
communications satellite launches, we could test a new sensor 
on that commercial communications satellite, and those 
satellites are launching quite frequently these days. And not 
only in geostationary orbit but now in the future we're going 
to be launching them into low-Earth orbit as well.
    I'd like to recognize the gentleman from Texas, Dr. Babin, 
for the final five minutes.
    Mr. Babin. You bet. Thank you, Mr. Chairman. I just had one 
question for Mr. Powner concerning the fly-out charts and 
schedules annually published by NOAA. Do they accurately depict 
the state of our satellites in orbit, these fly-out charts?
    Mr. Powner. Yes, I think the fly-out charts, there's 
improvements that could be made. So for--I'll just point to 
NPP. The NPP, the amount of fuel that's on there, that's not 
what's really important. What's important is how long is the 
spacecraft and the sensors going to last? And we think those 
fly-out charts should reflect that.
    I think Dr. Volz brought up some good things with their 
availability assessments. They have the data. That data, when 
you look at the 2015 analysis, basically says that I think--I 
think the life span using their data is somewhere in the 2018 
time frame, not 2020. However, that's dated.
    And I do want to bring up this point on ATMS again because 
I think Dr. Volz is right. His answer was absolutely correct 
that all this data plays into the short-term forecast. But 
let's not downplay the importance of ATMS and CrIS and the 
importance of using those two instruments together for 
forecasts. If you don't have ATMS working well, there is an 
effect on our forecasts, so it's very important that we keep 
that thing going on NPP until we get J-1 up there.
    Mr. Babin. Okay. Thank you. Why is NOAA fiddling with the 
estimated life span? Is it to make it appear that we are not 
facing a data gap?
    Mr. Powner. We've had great debates over this data gap over 
the years, Congressman, and, you know, in our--we put it on our 
high-risk list, the gap--potential gap in the data here is 
something that is critical. We need to acknowledge it. We need 
to have appropriate contingency plans in place. I think NOAA 
has done a good job on that, but I think there needs to be even 
better transparency with these fly-out charts and everything, 
not only this committee, but we get the same questions from the 
appropriators, too. It's not always clear.
    Mr. Babin. Yes.
    Mr. Powner. And we just need better transparency. And I 
think we're moving in that direction, and I think there's been 
an acknowledgment of that.
    Mr. Babin. Okay. Mr. Chairman, that's all I had this 
morning. And thank you, witnesses, too. Thank you. I yield 
back.
    Chairman Bridenstine. Well, thank you. I'd like to thank 
the witnesses for their valuable testimony today and the 
Members for their great questions. The record will remain open 
for the next two weeks for additional comments and written 
questions from Members. This hearing is adjourned.
    [Whereupon, at 11:38 a.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions




                   Answers to Post-Hearing Questions
Responses by Dr. Stephen Volz


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




Responses by Ms. Cristina Chaplain

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>
</pre></body></html>
